                                       SOCIAL SECURITY
MEMORANDUM

Date:      September 17, 2002                                                Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Effectiveness of the Social Security Administration’s Death Termination Process
           (A-09-02-22023)


           The attached final report presents the results of our audit. Our objective was to
           evaluate (1) the effectiveness of the Social Security Administration’s controls and
           procedures for resolving death alerts and recovering payments after the death of a
           beneficiary, and (2) the timeliness of death reporting by State agencies.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

           Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




       EFFECTIVENESS OF THE

 SOCIAL SECURITY ADMINISTRATION’S

    DEATH TERMINATION PROCESS


   September 2002    A-09-02-22023

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       Executive Summary
OBJECTIVE
Our objective was to evaluate (1) the effectiveness of the Social Security
Administration’s (SSA) controls and procedures for resolving death alerts and
recovering payments after the death of a beneficiary, and (2) the timeliness of
death reporting by State agencies.

BACKGROUND
SSA’s Death Alert, Control, and Update System (DACUS) receives death reports
from Federal and State agencies and compares the date of death to its payment
records. If payments have been made after death, DACUS generates an alert. SSA’s
procedures state that field offices (FO) should resolve death alerts within 30 days to
minimize incorrect payments. To recover payments after death, SSA works with the
Department of the Treasury (Treasury) to initiate the reclamation process and collect
any outstanding amounts owed to the Agency.

In September 1999, SSA contracted with the National Association for Public Health
Statistics and Information Systems (NAPHSIS) to develop standards and guidelines for
a nationwide system of electronic death registration (EDR). Under EDR, SSA verifies
the Social Security number (SSN) with the State bureaus of vital statistics at the
beginning of the death registration process, thereby allowing the Agency to take
immediate termination action—on death reports with verified SSNs—without
independently verifying the accuracy of the report.

RESULTS OF REVIEW
SSA needs to improve its controls and procedures to ensure that (1) death alerts are
resolved in a timely and consistent manner, and (2) improper payments are recovered
after the death of a beneficiary. Because of delays in receiving death reports from
Federal and State agencies and processing reclamation actions with Treasury, SSA
is vulnerable to individuals who negotiate payments received after the death of a
beneficiary.

Based on a random sample of 200 death alerts from July to December 1999, we found
that SSA disbursed $216,327 in payments after death. Of this amount, SSA had not
recovered $8,141 as of March 2002. Projecting these results to our population of
65,809 death alerts, we estimate that SSA disbursed about $71.2 million in payments
after death, of which SSA was unable to recover about $2.7 million. For calendar
year 1999, we estimate that SSA disbursed about $142.4 million in payments after
death. Of this amount, SSA had not recovered about $5.4 million as of March 2002
(see Appendix A).


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                         i
RECOMMENDATIONS
We recommend that SSA:

�	 Modify its automated systems to support EDR, including the on-line verification of
   SSNs, processing of verified and unverified State death reports, and termination of
   benefits upon receipt of verified State death reports.

�   Encourage State BVS agencies to develop and implement EDR systems.

�   Work with other Federal and State agencies to obtain additional funding for EDR.

�	 Issue a memorandum to reiterate that FOs should process death alerts as
   expeditiously as possible to minimize improper payments to deceased beneficiaries.

�	 Evaluate the feasibility of systems modifications to (1) simultaneously issue the
   “come-in” letter to the beneficiary when the death alert is sent to the FO, and
   (2) automatically suspend benefits if the beneficiary does not respond to the
   “come-in” letter.

�	 Issue a memorandum to reiterate that processing centers (PC) should follow up on
   the status of reclamation actions with Treasury to ensure that payments after death
   are recovered.

�	 Encourage PCs to maximize the use of debt collection tools available to the Agency
   to recover payments after the death of a beneficiary.

AGENCY COMMENTS
SSA agreed with six of the seven recommendations. Specifically, SSA agreed to obtain
systems support for EDR and stated that full implementation is scheduled for
September 2003. SSA is working with NAPHSIS to develop and implement EDR
systems and plans to award additional contracts to States in September 2002. In
addition, SSA is working with the National Centers for Health Statistics to obtain
sources of funding for EDR.

SSA agreed to issue a memorandum by September 2002 to remind its employees to
process all death alerts in a timely manner and follow up on reclamation actions with
Treasury to ensure that payments after death are recovered. SSA also agreed that debt
collection tools should be used to the extent possible. Furthermore, SSA initiated an
Information Technology project to facilitate the use of authorized debt collection tools
available to the Agency.

However, SSA disagreed with our recommendation to evaluate the feasibility of systems
modifications to (1) simultaneously issue the “come-in” letter along with the death alert


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                         ii
and (2) automatically suspend benefits if there is no response to the “come-in” letter.
SSA stated that the corrective actions for other recommendations in the report should
address the concerns raised in this recommendation. SSA also provided technical
comments that have been incorporated into the final report. The full text of SSA’s
comments is included in Appendix B.

OIG RESPONSE
SSA’s planned actions generally addressed our recommendations. Although EDR
may provide a solution for the long term, we believe SSA should evaluate other
alternatives for the short term. Therefore, we encourage SSA to reassess the feasibility
of systems modifications to further automate the death reporting process.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                          iii
                                                         Table of Contents

                                                                                                             Page


INTRODUCTION.....................................................................................................1


RESULTS OF REVIEW ..........................................................................................7


Improper Payments to Deceased Beneficiaries ......................................................8


    �    Prior to Receipt of Death Report...................................................................8


    �    Within 30 Days of Initial Death Alert ...........................................................10


    �    Over 30 Days After Initial Death Alert.........................................................11


Improper Payments Not Recovered ......................................................................12


CONCLUSIONS AND RECOMMENDATIONS.....................................................15


APPENDIX


Appendix A – Sampling Methodology


Appendix B – Agency Comments


Appendix C – OIG Contacts and Staff Acknowledgments





Effectiveness of SSA’s Death Termination Process (A-09-02-22023)
                                                                   Acronyms

BVS             Bureau of Vital Statistics


CMS             Centers for Medicare and Medicaid Services


CY              Calendar Year


DACUS           Death Alert, Control, and Update System


EDR             Electronic Death Registration


FO              Field Office


FY              Fiscal Year


MBR             Master Beneficiary Record


NAPHSIS         National Association for Public Health Statistics and Information Systems


OASDI           Old-Age, Survivors and Disability Insurance


PC              Processing Center


POMS            Program Operations Manual System


SSA             Social Security Administration


SSI             Supplemental Security Income


SSN             Social Security Number


SSR             Supplemental Security Record





Effectiveness of SSA’s Death Termination Process (A-09-02-22023)
                                                                     Introduction

OBJECTIVE
Our objective was to evaluate (1) the effectiveness of the Social Security
Administration’s (SSA) controls and procedures for resolving death alerts and
recovering payments after the death of a beneficiary, and (2) the timeliness of
death reporting by State agencies.

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) and
Supplemental Security Income (SSI) programs under titles II and XVI of the Social
Security Act (Act). The OASDI program provides benefits to retired and disabled
workers, including their dependents and survivors. The SSI program provides benefits
to financially needy individuals who are aged, blind, and/or disabled. For the Fiscal
Year (FY) ended September 30, 2000, the OASDI program provided cash payments
of $402.1 billion to 45.3 million beneficiaries. In addition, the SSI program provided
cash payments of $30.8 billion to 6.6 million recipients.1

About 2.3 million people die in the United States each year, of whom 2.0 million
are SSA beneficiaries.2 The death of a beneficiary is an event that terminates the
entitlement of that individual to benefits. SSA receives reports of death from a variety of
sources, including friends and relatives of deceased individuals, funeral homes, postal
authorities, financial institutions, and Federal and State agencies. Friends, relatives,
and funeral homes report about 90 percent of deaths. Postal authorities and financial
institutions report another 5 percent of deaths. SSA relies on computer matches with
Federal and State agencies to identify the remaining 5 percent of deaths. The following
chart illustrates the source of death reports received by SSA.




1
    Social Security Performance and Accountability Report for Fiscal Year 2000, pages 4 and 5.
2
 U.S. Department of Health and Human Services, Centers for Disease Control and Prevention, National
Center for Health Statistics, National Vital Statistics Report, volume 49, number 8, and Annual Statistical
Supplement, 2000 to the Social Security Bulletin, table 6.F2.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                                          1
                              Source of Death Reports




                           Friends, Relatives, and Funeral Homes (90 Percent)
                           Postal Authorities and Financial Institutions (5 Percent)
                           Federal and State Agencies (5 Percent)




Upon receipt of a death report, field offices (FO) and processing centers (PC) enter the
information into SSA’s automated systems. For all individuals, the death information is
recorded on the Numident, a master file that contains personal identifying data about
each individual who has been issued a Social Security number (SSN). For individuals
currently receiving benefits, the death information is recorded on the Master Beneficiary
Record (MBR) and Supplemental Security Record (SSR), the master files that contain
payment data about each individual who has received Social Security benefits.

Death Alert, Control, and Update System

To identify erroneous payments to deceased individuals, SSA’s Death Alert, Control,
and Update System (DACUS) performs computer matches with death data received
from external and internal sources. The external sources include Federal agencies,
such as the Veterans Administration and the Centers for Medicare and Medicaid
Services (CMS), and State agencies, such as bureaus of vital statistics (BVS) and
social services agencies. The internal sources include SSA’s system of records, such
as the MBR, SSR, and Numident. DACUS also produces a national file of death
information, called the Death Master File.

DACUS receives the death reports and compares the date of death to SSA’s payment
records, including the MBR and SSR. If there is no conflicting information, DACUS
records the death on the Numident. If payments have been made after death or there is
conflicting information about the date of death, DACUS generates an alert to the FO.
DACUS also generates a follow-up alert every 30 days until the initial alert has been
resolved. In addition, DACUS produces a monthly report of death alerts over 120 days




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                        2
old, called the “120-day aged alert report,” for regional offices to ensure that all death
alerts are resolved.

SSA’s Program Operations Manual System (POMS) states that FOs should resolve
death alerts within 30 days to minimize incorrect payments.3 The FO attempts to call
the beneficiary’s residence to verify the death information. If the death is verified, the
FO terminates benefits immediately. If the individual may be alive, the FO conducts
a face-to-face interview. If the telephone contact is unsuccessful, the FO mails a
“come-in” letter to request a face-to-face interview. For SSI recipients, the FO mails
another letter which provides advance notice of adverse action and suspends benefits
after 30 days if there is no response.4 For OASDI beneficiaries, the PC suspends
payments after 20 days if there is no response and terminates benefits after an
additional 60 days. An overview of the death alert process is depicted in the following
chart.



                                  Processing of Death Alerts
           Initial               Follow-Up           Follow-Up            Follow-Up
                         30                   30                    30                  30
           Death                   Alert               Alert                Alert                120-Day
                        Days                 Days                  Days                Days
            Alert                                                                               Aged Alert
                                                                                                  Report


                                                        Call
                                                      Individual




                      Death                          Individual                          Contact
                     Verified?                         Alive?                         Unsuccessful?




                     Terminate                      Face-To-Face                        “Come-In”
                      Benefits                        Interview                           Letter




                                                      Continue                          Suspend
                                                      Benefits                          Benefits




3
    POMS, section GN 02602.065.
4
    Including individuals who receive concurrent benefits under the OASDI and SSI programs.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                                             3
Electronic Death Registration

In September 1999, SSA contracted with the National Association for Public Health
Statistics and Information Systems (NAPHSIS), an association of State vital records
directors and registrars, to develop standards and guidelines for a nationwide system
of electronic death registration (EDR). This system would enable SSA to receive death
reports within 5 days of death and 24 hours of receipt in the State BVS. Under EDR,
SSA verifies the SSN with the State BVS at the beginning of the death registration
process, thereby allowing the Agency to take immediate termination action—on death
reports with verified SSNs—without independently verifying the accuracy of the report.

This system would automate the death registration process and enable SSA to receive
more timely and accurate death reports, resulting in significant program and workyear
savings. In addition, EDR provides the infrastructure for other Federal and State
agencies that rely on such information to detect and prevent erroneous payments to
deceased individuals. Under the terms of the contract, NAPHSIS conducted two pilot
projects to determine the feasibility of (1) transmitting death reports to SSA within
24 hours, and (2) developing a system for on-line verification of SSNs. Both projects
were completed in New Jersey.

Recovery of Payments After Death

Upon receipt of a death report, SSA is required to terminate benefits to the deceased
individual and recover any payments after the date of death. Since entitlement to
benefits ceases when an individual dies, these payments are defined as incorrect
payments rather than overpayments and are not subject to SSA’s normal recovery
procedures.5 Generally, the recovery of payments after death is the responsibility of
the Department of the Treasury (Treasury). Treasury recovers these payments from
financial institutions through a process called reclamation.

SSA initiates the reclamation process by electronically submitting the Form SF-1184,
Unavailable Check Cancellation/Request for Stop Payment, to Treasury. Upon receipt
of the Form SF-1184, Treasury examines its records of issued payments. If the check
was issued but not negotiated, Treasury credits SSA for the amount of the payment. If
the check was negotiated, Treasury attempts to reclaim the amount from the financial
institution. Treasury credits SSA for any funds collected from the financial institution.
Treasury initiates similar actions for payments via electronic funds transfer. If the full
amount of the payment is not recovered, Treasury provides SSA with a copy of the
negotiated check or the name of the individual who withdrew the funds from the



5
  Payments after death are not legally-defined overpayments, except as follows: Payments to a
representative payee after the death of a beneficiary are overpayments to the representative payee,
payments to a bank account via direct deposit where the joint owner is entitled on the same earnings
record as the deceased individual are overpayments to the joint owner, and checks payable to a
deceased individual and survivor are overpayments to the survivor.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                                       4
beneficiary’s account. Thereafter, the responsibility for collecting any outstanding
amounts shifts to SSA.6

SCOPE AND METHODOLOGY
From July to December 1999, DACUS generated 65,809 initial death alerts for

OASDI beneficiaries under title II of the Act. Of this amount, 63,056 alerts were for

beneficiaries in current pay status, and 2,753 alerts were for beneficiaries in terminated

pay status. From this population, we selected a random sample of 200 death alerts for

our review. Although the individuals in terminated pay status were no longer receiving

benefits when the death alert was generated, we did not exclude these individuals from

our population because they could have previously received improper payments based

on erroneous dates of death. The following chart summarizes the initial death alerts by

payment status.




                                  Initial Death Alerts
                                July 1999 to December 1999
         Current Pay
        63,056 (95.8%)




                                                                           Terminated
                                                                           2,753 (4.2%)




To accomplish our objectives, we:

�	 reviewed the applicable sections of the Act, Code of Federal Regulations, and
   POMS;

�	 interviewed SSA employees from the Offices of Program Benefits, Systems
   Requirements, Systems Design and Development, Financial Policy and Operations,
   and Quality Assurance and Performance Assessment;

6
    POMS, sections GN 02408.001 and GN 02230.020.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                          5
�	 performed site visits at selected FOs in SSA’s Region IX and interviewed employees
   responsible for processing death alerts;

�	 obtained electronic copies of initial death alerts generated by DACUS from July to
   December 1999;

�   extracted a random sample of 200 death alerts from the population; and

�	 obtained queries from the MBR, SSR, Numident, Payment History Update System,
   Modernized Development Worksheet, and Recovery of Overpayments, Accounting,
   and Reporting system.

As part of our review, we verified the information on the death alerts against SSA’s
beneficiary and payment records. For the individuals who were deceased, we
determined the amount of payments after death and reviewed the actions taken by
SSA to recover these amounts over a period of time. In addition, we determined
whether the payments after death were disbursed before receipt of a death report,
within 30 days of the initial death alert, or over 30 days after the initial death alert.

We performed audit work in Baltimore, Maryland, and Richmond, California, between
November 2001 and April 2002. The entity audited was the Office of Program Benefits
within the Office of the Deputy Commissioner for Disability and Income Security
Programs. We conducted our audit in accordance with generally accepted government
auditing standards.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                            6
                                                        Results of Review

SSA needs to improve its controls and procedures to ensure that (1) death alerts are
resolved in a timely and consistent manner, and (2) improper payments are recovered
after the death of a beneficiary. Because of delays in receiving death reports from
Federal and State agencies and processing reclamation actions with Treasury, SSA
is vulnerable to individuals who negotiate payments received after the death of a
beneficiary.

Based on a random sample of 200 death alerts from July to December 1999, we found
that SSA disbursed $216,327 in payments after death. Of this amount, SSA had not
recovered $8,141 as of March 2002. Projecting these results to our population of
65,809 death alerts, we estimate that SSA disbursed about $71.2 million in payments
after death, of which SSA was unable to recover about $2.7 million. During our review,
we found no evidence to indicate that the nature and extent of death alerts in the
second half of 1999 were not representatives of those in the first half of 1999.
Therefore, our estimates for calendar year (CY) 1999 are twice as much as our
projections for the second half of 1999. Accordingly, we estimate that SSA disbursed
about $142.4 million in payments after death in CY 1999, of which SSA had not
recovered about $5.4 million as of March 2002 (see Appendix A). The results of our
review are summarized below.



     Improper Payments to Deceased OASDI Beneficiaries
                                           Calendar Year 1999 (Estimated)


                                $160
     Total Dollars (Millions)




                                $140

                                $120
                                                                            Paym ents After
                                $100   $142.4 Million                       Death
                                $80
                                                                            Paym e nts Not
                                $60                                         Recovered

                                $40                     $5.4 Million
                                $20

                                 $0




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                              7
IMPROPER PAYMENTS TO DECEASED BENEFICIARIES
In CY 1999, we estimate that SSA disbursed about $86.3 million (60.6 percent) before
it received a death report (that is, between the date of death and date of alert). This
occurred because of delays in receiving death reports from Federal and State agencies.
We also estimate that SSA disbursed about $42.2 million (29.6 percent) during the
30-day period for processing death alerts. This occurred because of timing differences
between the dates in which SSA processed the alerts and disbursed the payments. In
addition, we estimate that SSA disbursed about $13.9 million (9.8 percent) over 30 days
after death alert was generated. This occurred because of delays in processing death
alerts by FOs. The following chart provides a breakdown of the total payments after
death.



                 Summary of OASDI Payments After Death
                             Calendar Year 1999 (Estimated)
      From Date of Death                                                Within 30 Days
        to Date of Alert                                                of Death Alert
         $86.3 Million                                                   $42.2 Million




                                                                       Over 30 Days
                                                                      After Death Alert
                                                                        $13.9 Million




Prior to Receipt of Death Report

   60 Percent of Death      Of the 200 death alerts in our sample, 160 alerts resulted
    Reports Were Not        in improper payments to deceased beneficiaries. In 40 of
                            the 160 cases, SSA promptly received the death reports
    Received Timely
                            from Federal and State agencies before any payments
after death were disbursed. However, in 120 cases, SSA did not receive the death
reports in a timely manner. As a result, these individuals received $131,184 in
payments to which they were not entitled.

Our review disclosed that delays in receiving death reports contributed significantly
to the total payments after death. As depicted in the chart below, the elapsed time
from the date of death to the date of alert varied considerably based on the source of


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                          8
the death report. For the individuals in current pay status, we determined that the
average length of time to receive death reports from Federal agencies and
State agencies was 53 and 75 days, respectively.



                       Average Length of Time to Receive Death Reports
                                    Results of 200 Sample Death Alerts

                        80
                        70
      Number of Days




                        60
                        50     75
                        40
                                                   53
                        30
                                                                         40
                        20
                        10
                         0
                               BVS                 CMS                   SSA7




The death registration process requires that hospitals, medical examiners, coroners,
and funeral homes submit reports of death to local registrars (for example, county
recorder’s offices). Each State BVS consolidates death data from local registrars before
reporting such information to SSA. This process is susceptible to errors and delays
because of the manual processing of paper records and limited systems interface
between these entities.

In September 1999, SSA contracted with NAPHSIS to develop standards and
guidelines for a nationwide EDR system, including the on-line verification of SSNs. This
system would enable SSA to receive death reports within 5 days of death and 24 hours
of receipt in the State BVS. Under EDR, SSA verifies the SSN with the State BVS at
the beginning of the death registration process. For death reports with verified SSNs,
SSA may take immediate termination action upon receipt of the report. For death
reports with unverified SSNs, SSA must independently verify the accuracy of the report
before initiating termination action.

This system would automate the death registration process and enable SSA to receive
more timely and accurate death reports, resulting in significant program and workyear
savings. In addition, EDR provides the infrastructure for other Federal and State

7
  These alerts originated from death reports received by FO employees from a variety of sources,
including family members, funeral homes, and SSA’s payment records.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                                   9
agencies that rely on such information to detect and prevent erroneous payments to
deceased individuals. These agencies include the Department of Defense, Office of
Personnel Management, Railroad Retirement Board, Veterans Administration, and
State food stamp agencies.

SSA recently included EDR as part of its key initiative for information exchange to
support the strategic goals and objectives of the Agency. The purpose of this initiative
is to increase electronic access to information needed to administer SSA’s programs
and improve service delivery to the public. We commend SSA for its commitment to
develop, support, and implement EDR and reduce the potential for payments after
death.

However, SSA needs to implement a number of systems modifications to realize the
benefits of EDR. For example, SSA’s automated systems are not equipped to support
the on-line verification of SSNs. Such a system is necessary for SSA to take immediate
termination action without independent verification of the death report. SSA should also
modify its title II and title XVI software programs to automatically terminate benefits
when it receives a verified State death report. In addition, SSA should modify DACUS
to differentiate between a verified and unverified State death report.

Furthermore, SSA needs to encourage State BVS agencies to establish EDR systems.
To achieve the projected savings from EDR, it is imperative that SSA obtain broad
participation of State BVS agencies on a nationwide basis. Unless SSA demonstrates
that the benefits of EDR outweigh its costs, State BVS agencies may be unwilling to
adopt such a system. Although SSA provided partial funding to New Hampshire and
Washington, DC, additional funding is necessary to establish EDR in the remaining
States. SSA needs to work with other Federal and State agencies to obtain funding for
EDR, especially since many of these agencies rely on death information to detect and
prevent erroneous payments to deceased individuals.

Within 30 Days of Initial Death Alert

    Timely Processing of      Of the 200 death alerts in our sample, 160 alerts resulted
      Alerts Resulted in      in improper payments to deceased beneficiaries. In
     Improper Payments        69 cases, SSA did not disburse any payments after the
                              death alert was generated. However, in 91 cases, SSA
disbursed payments within 30 days of the initial death alert. Although SSA generally
resolved the alerts in a timely manner, our review disclosed that the termination actions
were not initiated or completed until after the monthly payments had already been
disbursed. As a result, these individuals received $64,046 in payments to which they
were not entitled.

POMS states that FOs should take prompt action to clear all death alerts, including
initial and follow-up alerts, within 30 days to minimize incorrect payments.8 For the
91 cases in our sample, we commend SSA for its corrective actions to resolve the death
8
    POMS, section GN 02602.065.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                       10
alerts in accordance with these time frames. However, because of timing differences
between the dates in which SSA processed the alerts and disbursed the payments,
these actions were not always sufficient to prevent improper payments to deceased
beneficiaries.

In some instances, SSA initiated termination actions at the beginning of the 30-day
period but was unable to complete such actions before the payment for the month
was disbursed. In other instances, SSA did not initiate termination actions until the
end of the 30-day period and had already disbursed the payment for the month. By
processing these alerts as expeditiously as possible, SSA could minimize the payments
after death, thereby alleviating the workload necessary to establish and recover
improper payments.

Over 30 Days After Initial Death Alert

   Death Alerts Were          Of the 200 death alerts in our sample, 160 alerts resulted
 Not Always Processed         in improper payments to deceased beneficiaries. In
                              142 cases, SSA resolved the death alerts in a timely
    Within 30 Days
                              manner. However, in 18 cases, SSA did not take prompt
corrective action to resolve the alerts within 30 days. As depicted in the chart below,
the amount of time required to resolve the death alerts range from 1 to 4 months.
During this period, these individuals remained in current pay status until the termination
actions were subsequently processed. As a result, these individuals received
$21,097 in payments to which they were not entitled.



                             Delays in Processing OASDI Death Alerts
                                    Results of 200 Sample Death Alerts

                        12

                        10
     Number of Alerts




                        8

                        6

                        4

                        2

                        0
                                1            2                3          4
                                                 Number of Months




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                        11
SSA’s procedures state that FOs should resolve death alerts within 30 days to

minimize incorrect payments. Specifically, POMS states that FOs should initially

attempt one telephone contact to the beneficiary’s residence. If the telephone contact is

unsuccessful, the FO should mail a “come-in” letter to request a face-to-face interview.

If the beneficiary does not respond within 20 days, the FO should suspend benefits.

POMS requires FOs to obtain a death certificate only when the beneficiary is alleged to

be alive.9


However, our review disclosed that FOs were not fully aware of, and did not always

comply with, the applicable procedures for resolving death alerts. For example,

two FOs informed us that they initially contacted the local registrar rather than the

beneficiary’s residence to resolve the alert. In fact, the FOs usually did not contact

the beneficiary’s residence at all. In addition, two FOs informed us that they did not

suspend benefits after 20 days if there was no response to the “come-in” letter. Instead,

the FOs allowed the beneficiaries to remain in current pay status.


Under current procedures, the FO mails the “come-in” letter only after DACUS

generates the death alert and the FO contacts the beneficiary’s residence. The FO

suspends benefits only after the beneficiary does not respond to the “come-in” letter

within 20 days. During our review, we noted that these actions may require several

months to complete, especially if the FO does not process the death alert, contact the

beneficiary, mail the “come-in” letter, and/or suspend benefits in a timely manner.


Although EDR may provide a solution for the long term, we believe that SSA needs to

evaluate other alternatives for the short term. SSA employees10 informed us that

systems modifications could reduce the potential for errors and delays. For example,

SSA could modify its automated systems to simultaneously issue the “come-in” letter

to the beneficiary along with the death alert to the FO. In addition, SSA could modify

its automated systems to automatically suspend benefits after 20 days if there is no

response to the “come-in” letter. Such modifications should improve the death reporting

system and prevent payments after the death of a beneficiary.


IMPROPER PAYMENTS NOT RECOVERED

     Payments After Death   Of the 200 death alerts in our sample, 160 alerts resulted
     Were Not Recovered     in improper payments to deceased beneficiaries. In
       After 27 Months      154 cases, SSA subsequently recovered the full amount of
                            payments owed to the Agency. However, in six cases,
SSA did not recover $8,141 in payments after death. As of March 2002, our review
disclosed that SSA made partial recoveries in four cases and no recoveries in
two cases. These payments remained outstanding for at least 27 months after the date
of death. The recovery of payments after death is summarized in the following chart.


9
     POMS, section GN 02602.071.
10
     Staff members from the Offices of Program Benefits and Systems Design and Development.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                              12
                                Recovery of OASDI Payments After Death
                                        Results of 200 Sample Death Alerts

                          160

                          140
        Number of Cases




                          120

                          100        154
                          80

                          60

                          40                               4                 2
                          20
                           0
                                     Full             Partial             No
                                   Recovery          Recovery          Recovery



Most payments after death are incorrect payments. For these cases, SSA electronically
submits the Form SF-1184 to Treasury. Upon receipt of the Form SF-1184, Treasury
attempts to reclaim payments from financial institutions. If the full amount of the
payment is not recovered, Treasury provides SSA with the name of the individual who
withdrew the funds from the beneficiary’s account. Thereafter, the responsibility for
collecting any outstanding amounts shifts to SSA.11 Moreover, some payments after
death are legally-defined overpayments (for example, payments to representative
payees who receive benefits on behalf of deceased beneficiaries). For these cases,
SSA attempts to obtain repayment or adjust current benefits to collect amounts owed
to the Agency.12

In four of the six cases, Treasury was responsible for recovering the incorrect payments
from the financial institutions. In addition, SSA was responsible for recovering any
outstanding amounts from the individuals who withdrew the funds from the beneficiary’s
account. However, because of delays in processing reclamation actions with Treasury,
SSA was unable to recover these payments. In some instances, PCs did not follow up
on the Form SF-1184 in a timely manner. In other instances, PCs attempted to follow
up but discontinued such efforts over a period of time.

In two of the six cases, SSA was responsible for recovering the overpayments from the
representative payees. However, because PCs did not use the debt collection tools
available to the Agency, SSA was unable to recover these payments. In one instance,

11
     POMS, sections GN 02408.001 and GN 02230.020.
12
     POMS, sections GN 02201.001 and GN 02201.013.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                      13
SSA contacted the representative payee but did not pursue other tools to collect the
debt. In another instance, SSA established the overpayment but did not withhold a
retroactive check to recover the amounts owed. To prevent future occurrences of
similar problems, PCs should follow up on the status of reclamation actions with
Treasury to ensure that payments after death are recovered.

The Debt Collection Improvement Act of 1996 provided SSA with additional tools
to maximize the collection of delinquent debts owed to the Agency. However, the
General Accounting Office previously reported that SSA has not effectively used a
number of debt collection tools, including tax refund offsets, administrative offsets, credit
bureau reporting, collection agencies, interest and penalties, and administrative wage
garnishment.13 As a result, SSA did not recover as much in overpayments as it could
have. We believe that PCs should maximize the use of these debt collection tools to
recover payments after the death of a beneficiary.




13
   Supplemental Security Income: Action Needed on Long-Standing Problems Affecting Program
Integrity (GAO/HEHS-98-158), September 1998, and “Debt Collection Improvement Act of 1996:
Status of Selected Agencies’ Implementation of Administrative Wage Garnishment (GAO-02-313),
February 2002.


Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                               14
                                              Conclusions and
                                           Recommendations
Based on a random sample of 200 death alerts from July to December 1999, we found
that SSA disbursed $216,327 in payments after death. Of this amount, SSA had not
recovered $8,141 as of March 2002. Projecting these results to our population of
65,809 death alerts, we estimate that SSA disbursed about $71.2 million in payments
after death, of which SSA was unable to recover about $2.7 million. For CY 1999, we
estimate that SSA disbursed about $142.4 million in payments after death. Of this
amount, SSA had not recovered about $5.4 million as of March 2002 (see Appendix A).

Although SSA has undertaken a number of initiatives to improve its death reporting
system, we believe that actions are necessary to strengthen program integrity and deter
fraud, waste, and abuse. These actions should reduce the potential for errors and
delays in receiving death reports, processing death alerts, and recovering payments
after death. Therefore, we recommend that SSA:

1. 	 Modify its automated systems to support EDR, including the on-line verification of
     SSNs, processing of verified and unverified State death reports, and termination of
     benefits upon receipt of verified State death reports.

2. Encourage State BVS agencies to develop and implement EDR systems.

3. Work with other Federal and State agencies to obtain additional funding for EDR.

4. 	 Issue a memorandum to reiterate that FOs should process death alerts as
     expeditiously as possible to minimize improper payments to deceased beneficiaries.

5. 	 Evaluate the feasibility of systems modifications to (1) simultaneously issue the
     “come-in” letter to the beneficiary when the death alert is sent to the FO, and
     (2) automatically suspend benefits if the beneficiary does not respond to the
     “come-in” letter.

6. 	 Issue a memorandum to reiterate that PCs should follow up on the status of
     reclamation actions with Treasury to ensure that payments after death are
     recovered.

7. 	 Encourage PCs to maximize the use of debt collection tools available to the Agency
     to recover payments after the death of a beneficiary.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                         15
AGENCY COMMENTS
In its response, SSA agreed with six of the seven recommendations. Specifically,
SSA agreed to obtain systems support for EDR and stated that full implementation
is scheduled for September 2003. SSA is working with NAPHSIS to develop and
implement EDR systems and plans to award additional contracts to States in
September 2002. In addition, SSA is working with the National Centers for Health
Statistics to obtain sources of funding for EDR.

By September 2002, SSA agreed to issue a memorandum to remind its employees to
process all death alerts in a timely manner and follow up on reclamation actions with
Treasury to ensure that payments after death are recovered. SSA also agreed that debt
collection tools should be used to the extent possible. Furthermore, SSA initiated an
Information Technology project to facilitate the use of authorized debt collection tools
available to the Agency.

However, SSA disagreed with our recommendation to evaluate the feasibility of systems
modifications to (1) simultaneously issue the “come-in” letter along with the death alert,
and (2) automatically suspend benefits if there is no response to the “come-in” letter.
SSA stated that the corrective actions for other recommendations in the report should
address the concerns raised in this recommendation. SSA also provided technical
comments that have been incorporated into the final report. The text of SSA’s
comments is included in Appendix B.

OIG RESPONSE
SSA’s planned actions generally addressed our recommendations. Although EDR
may provide a solution for the long term, we believe that SSA should evaluate other
alternatives for the short term. Therefore, we encourage SSA to reassess the feasibility
of systems modifications to further automate the death reporting process.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                       16
                                      Appendices





Effectiveness of SSA’s Death Termination Process (A-09-02-22023)
                                                                       Appendix A

Sampling Methodology
We obtained electronic copies of the initial death alerts generated by the Social
Security Administration’s (SSA) Death Alert, Control, and Update System from July to
December 1999. For the beneficiaries who were deceased, we determined the amount
of payments after death and reviewed the actions taken by SSA to recover these
amounts over a period of time. In addition, we determined whether the payments after
death were disbursed before receipt of a death report, within 30 days of the initial death
alert, or over 30 days after the initial death alert.

Based on a random sample of 200 death alerts from July to December 1999, we found
that SSA disbursed $131,184 before it received a death report (that is, between the
date of death and date of alert). In addition, SSA disbursed $64,046 during the 30-day
period for processing alerts and $21,097 over 30 days after the death alert was
generated. By adding these amounts, we found that SSA disbursed $216,327 in
payments after the death of a beneficiary. Of this amount, SSA had not recovered
$8,141 as of March 2002.

Projecting these results to our population of 65,809 death alerts, we estimate that SSA
disbursed about $43.2 million before it received a death report, $21.1 million during the
30-day period for processing alerts, and $6.9 million over 30 days after the death alert
was generated. By adding these amounts, we estimate that SSA disbursed about
$71.2 million in payments after death from July to December 1999. Of this amount,
we estimate that SSA had not recovered about $2.7 million as of March 2002.

During our review, we found no evidence to indicate that the nature and extent of death
alerts in the second half of 1999 were not representative of those in the first half of
1999. Therefore, our estimates for calendar year (CY) 1999 are twice as much as our
projections for the second half of 1999. Accordingly, we estimate that SSA disbursed
about $86.3 million before it received a death report, $42.2 million during the 30-day
period for processing alerts, and $13.9 million over 30 days after the death alert
was generated. By adding these amounts, we estimate that SSA disbursed about
$142.4 million in payments after death in CY 1999. Of this amount, we estimate that
SSA had not recovered about $5.4 million as of March 2002. The following tables
provide the details of our sampling results and statistical projections.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                      A-1
               Table 1 – Incorrect Payments Prior to Receipt of Death Report

           Description                         Error Count                          Error Dollars
    Sample                                                        120                          $131,184
    Point Estimate                                             39,485                       43,165,604
    Lower Limit                                                35,521                       35,025,650
    Upper Limit                                                43,302                       51,305,557
    Annual Estimate                                            78,970                      $86,331,208

           Table 2 – Incorrect Payments Within 30 Days of Initial Death Alert

           Description                         Error Count                          Error Dollars
    Sample                                                         91                           $64,046
    Point Estimate                                             29,943                       21,074,016
    Lower Limit                                                26,025                       17,971,188
    Upper Limit                                                33,928                       24,176,844
    Annual Estimate                                            59,886                      $42,148,032

          Table 3 – Incorrect Payments Over 30 Days After Initial Death Alert

           Description                         Error Count                          Error Dollars
    Sample                                                         18                           $21,097
    Point Estimate                                              5,923                         6,941,862
    Lower Limit                                                 3,883                         3,634,497
    Upper Limit                                                 8,587                       10,249,228
    Annual Estimate                                            11,846                      $13,883,724

                   Table 4 – Incorrect Payments Not Recovered by SSA

           Description                         Error Count                          Error Dollars
           1
    Sample                                                          6                             $8,141
    Point Estimate                                              1,974                          2,678,755
    Lower Limit                                                   866                            694,781
    Upper Limit                                                 3,838                          4,662,730
    Annual Estimate                                             3,948                         $5,357,510




1
  In our sample, we originally found seven errors in the amount of $17,238. However, we considered
one error in the amount of $9,097 to be a statistical outlier (that is, unusually large compared to the other
errors) and excluded it from our analysis.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                                         A-2
The point estimate represents the statistical projection of the sample results to the
population for the death alerts generated during the 6-month period from July 1999 to
December 1999. All statistical projections are reported at the 90 percent confidence
level.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                   A-3
                                                                   Appendix B


Agency Comments





Effectiveness of SSA’s Death Termination Process (A-09-02-22023)
                                           SOCIAL SECURITY


MEMORANDUM


Date:      September 3, 2002                                                         Refer To: S1J-3

To:        James G. Huse, Jr.
           Inspector General

From:      Larry Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Effectiveness of the Social Security
           Administration's Death Termination Process” (A-09-02-22023)—INFORMATION


           We appreciate OIG's efforts in conducting this review. Our comments on the report content and
           recommendations are attached.

           Please let us know if we can be of further assistance. Staff questions can be referred to
           Dan Sweeney on extension 51957.

           Attachment:
           SSA Response




           Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                            B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
“EFFECTIVENESS OF THE SOCIAL SECURITY ADMINISTRATION'S DEATH
TERMINATION PROCESS” (A-09-02-22023)


Recommendation 1

Modify the Social Security Administration’s (SSA) automated systems to support Electronic
Death Registration (EDR), including the on-line verification of Social Security numbers (SSN),
processing of verified and unverified State death reports, and termination of benefits upon receipt
of verified State death reports.

Comment

We will continue to work on systems support for EDR. EDR is an initiative under eVital, one of
24 governmentwide eGov initiatives. As noted in the report, SSA has been engaged in the EDR
project since 1999. The Internet Verification "front-end" phase is scheduled for implementation
in December 2002. The "backend" Planning and Analysis phase has already been completed and
work is now being conducted on the Requirements phase. We expect full implementation by the
end of September 2003, at which time SSA will accept verified EDR records for immediate
termination.

Recommendation 2

Encourage State Bureau of Vital Statistics agencies to develop and implement EDR systems.

Comment

As indicated in the report, SSA is working with the National Association for Public Health
Statistics and Information Systems (NAPHSIS) and the States to develop and implement EDR
Systems. SSA began the nationwide rollout of EDR by awarding contracts to the District of
Columbia and New Hampshire in September 2001.

In September 2001, SSA also awarded a contract to NAPHSIS to 1) develop a comprehensive
educational plan for distribution to the various participants; 2) arrange marketing sessions with
various Federal agencies that use death data to explain the value of more timely and accurate data
and the program savings that could be realized; 3) serve as a consultant to States that are ready to
implement EDR; and 4) serve as a technical advisor to States that are not ready to implement,
providing advice and consulting services.

SSA plans to award additional State contracts in September 2002.

Recommendation 3

Work with other Federal and State agencies to obtain additional funding for EDR.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                               B-2
Comment

The recommendation is already a part of our development and expansion of EDR as SSA
continues to partner with National Centers for Health Statistics to encourage other sources of
funding.

Recommendation 4

Issue a memorandum to reiterate that field offices (FO) should process death alerts as
expeditiously as possible to minimize improper payments to deceased beneficiaries.

Comment

We agree and will issue a memorandum by the end of September 2002 reminding the FOs to
expeditiously process all death alerts received.

Recommendation 5

Evaluate the feasibility of systems modifications to 1) simultaneously issue the “come-in” letter
to the beneficiary when the death alert is sent to the FO, and 2) automatically suspend benefits if
the beneficiary does not respond to the “come-in” letter.

Comment

We disagree. We believe that expansion of EDR, systems enhancements and the reminder to
FOs noted above will address the concerns expressed in this recommendation. We also believe
that further study by OIG on the recommendation may be needed to consider the workload
impact of automated letters. FOs receive death reports from a variety of sources and confusion
may result if a “come-in” letter is received following other actions that may have been taken by
FOs.

Recommendation 6

Issue a memorandum to reiterate that processing centers (PC) should follow up on the status of
reclamation actions with Treasury to ensure that payments after death are recovered.

Comment

We agree and will issue a memorandum by the end of September 2002 reminding the PCs to
follow up on the status of reclamation actions with Treasury to ensure that payments after death
are recovered.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                                 B-3
Recommendation 7

Encourage PCs to maximize the use of debt collection tools available to the Agency to recover
payments after the death of a beneficiary.

Comment

We agree in principle that debt collection tools (tax refund offset, administrative offset, credit
bureau reporting and any subsequent tools) should be used whenever the criteria for their use are
met. However, it should be noted that SSA uses its automated systems to select the debtors for
inclusion in the debt collection programs: the PCs do not engage in any selection actions for the
debt collection tools.

SSA has initiated an Information Technology project called Non-Entitled Debtors that will
enable us to use authorized debt collection tools against representative payees of deceased
beneficiaries and other debtors who are liable for benefit payments made after the death of
beneficiaries. Scheduling for the project remains to be completed.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)                              B-4
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Bill Fernandez, Director, Western Audit Division, (510) 970-1739

   Jack H. Trudel, Deputy Director, (510) 970-1733

Acknowledgments
In addition to those named above:

   Joseph I. Robleto, Senior Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-09-02-22023.




Effectiveness of SSA’s Death Termination Process (A-09-02-22023)
                            DISTRIBUTION SCHEDULE


                                                                          No. of
                                                                         Copies

Commissioner of Social Security
                                              1
Management Analysis and Audit Program Support Staff, OFAM
                   10
Inspector General
                                                            1
Assistant Inspector General for Investigations
                               1
Assistant Inspector General for Executive Operations
                         3
Assistant Inspector General for Audit
                                        1
Deputy Assistant Inspector General for Audit
                                 1
 Director, Data Analysis and Technology Audit Division
                       1
 Director, Financial Audit Division
                                          1
 Director, Southern Audit Division
                                           1
 Director, Western Audit Division
                                            1
 Director, Northern Audit Division
                                           1
 Director, General Management Audit Division
                                 1
Team Leaders 
                                                               25
Income Maintenance Branch, Office of Management and Budget
                   1
Chairman, Committee on Ways and Means
                                        1
Ranking Minority Member, Committee on Ways and Means
                         1
Chief of Staff, Committee on Ways and Means
                                  1
Chairman, Subcommittee on Social Security
                                    2
Ranking Minority Member, Subcommittee on Social Security
                     1
Majority Staff Director, Subcommittee on Social Security
                     2
Minority Staff Director, Subcommittee on Social Security
                     2
Chairman, Subcommittee on Human Resources
                                    1
Ranking Minority Member, Subcommittee on Human Resources
                     1
Chairman, Committee on Budget, House of Representatives
                      1
Ranking Minority Member, Committee on Budget, House of Representatives        1
Chairman, Committee on Government Reform and Oversight                        1
Ranking Minority Member, Committee on Government Reform and Oversight         1
Chairman, Committee on Governmental Affairs                                   1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                        96
                    Overview of the Office of the Inspector General

                                          Office of Audit

The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                 Office of Executive Operations

OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                                Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
